No. 19-1021

In the Supreme Court of the United States
_____________
MICAH JESSOP & BRITTAN ASHJIAN,
Petitioners

v.
CITY OF FRESNO, DERIK KUMAGAI,
CURT CHASTAIN & TOMAS CANTU,
Respondents.

_____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

_____________
MOTION FOR LEAVE TO FILE AND
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
_____________
Mark Chenoweth
Michael P. DeGrandis
Harriet M. Hageman
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th Street NW, Suite 450
Washington, DC 20036
(202) 869-5210
harriet.hageman@ncla.legal
Counsel for Amicus Curiae

1
MOTION FOR LEAVE TO FILE BRIEF
OF THE NEW CIVIL LIBERTIES ALLIANCE AS

AMICUS CURIAE IN SUPPORT OF PETITIONERS
Pursuant to Rule 37.2 of the Rules of this Court,
the New Civil Liberties Alliance (NCLA) respectfully
moves for leave to file the attached brief as amicus
curiae in support of Petitioners. Faithful to the meaning and purpose of the role of an amicus curiae, NCLA
hopes to assist the Court by expounding on novel aspects of the law about which NCLA has special interest and knowledge. Petitioners consented to NCLA’s
request to file as amicus, but NCLA moves for leave
to file because Respondents refused consent.
The New Civil Liberties Alliance (NCLA) is a nonprofit and nonpartisan civil rights organization and
public-interest law firm devoted to defending constitutional freedoms against systemic threats, including
attacks by state and federal administrative agencies
on due process, jury rights, and freedom of speech.
NCLA also opposes judicial abdication of courts’ independent judgment through conventions of deference,
avoidance, and other impediments to the application
and development of constitutional law. We uphold
these constitutional rights on behalf of all Americans,
of all backgrounds and beliefs, and we do this through
original litigation, amicus curiae briefs, and other advocacy.
The “new civil liberties” of the organization’s name
include rights at least as old as the United States
Constitution itself, such as the right of the people to
be secure in their persons, houses, papers, and effects
against unreasonable searches and seizures. These
selfsame civil rights are also “new”—and in dire need
of renewed vindication—precisely because judicially


2
created immunities impermissibly shield the unconstitutional actions of state actors from § 1983 liability.
Whenever courts are unwilling to hold government
actors accountable for their constitutional transgressions against citizens, the vitality of every American’s
civil liberties diminishes.
NCLA is particularly disturbed that the Ninth Circuit Court of Appeals has willfully opted out of deciding a matter as simple—but gravely consequential—
as whether it is unconstitutional for a police officer to
use the cover of a search warrant to steal from a suspect. By choosing not to decide the issue, the panel
granted immunity not only to the Fresno police, but
to all police officers throughout the Ninth Circuit who
are accused of theft in the future, and who now may
continue to assert that a citizen’s constitutional protections from theft are not “clearly established.”
Thus, NCLA’s principal interest in this litigation is to
vindicate the § 1983 statutory scheme Congress enacted to ensure that states cannot deprive any person
of life, liberty, or property without due process of law.
Respectfully submitted,
Mark Chenoweth
Michael P. DeGrandis
Harriet M. Hageman
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th Street NW
Suite 450
Washington, DC 20036
(202) 869-5210
Dated: March 11, 2020 harriet.hageman@ncla.legal
Counsel for Amicus Curiae


No. 19-1021

In the Supreme Court of the United States
_____________
MICAH JESSOP & BRITTAN ASHJIAN,
Petitioners

v.
CITY OF FRESNO, DERIK KUMAGAI,
CURT CHASTAIN & TOMAS CANTU,
Respondents.

_____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

_____________
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
_____________

Mark Chenoweth
Michael P. DeGrandis
Harriet M. Hageman
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th Street NW, Suite 450
Washington, DC 20036
(202) 869-5210
harriet.hageman@ncla.legal
Counsel for Amicus Curiae

i
QUESTIONS PRESENTED
1. Whether it is clearly established that the
Fourth Amendment prohibits police officers from
stealing property listed in a search warrant.
2. Whether Pearson should be clarified or modified to require courts to determine whether constitutional rights have been violated to avoid creating
precedents that specific constitutional harms are not
“clearly established” prospectively.

ii
TABLE OF CONTENTS
Questions Presented .................................................... i
Table of Contents ........................................................ ii
Table of Authorities ................................................... iv
Interest of Amicus Curiae .......................................... 1
Summary of the Argument......................................... 3
Argument .................................................................... 6
I.

The Ninth Circuit Did Not Properly
Apply Pearson ................................................. 6
A. Pearson Does Not Permit StepSkipping
Where,
as
Here,
Constitutional
Rights
Require
Elaboration............................................... 6
B. Pearson Sanctions Step-Skipping
Only in Special Circumstances Not
Present Here ............................................ 9

II. Where a Constitutional Right Is Not
Clearly Established, Courts Should
Decide Whether the Right Exists for
Future Application ....................................... 10
A. Failing to Decide Whether a
Constitutional Right Is Clearly
Established Creates a Troubling
“Anti-Precedent” .................................... 11
B. This Anti-Precedent Could Prevent a
Future
Court
from
Deciding
Whether the Constitutional Right Is
Clearly Established ............................... 12

iii
III. The Supreme Court Should Summarily
Reverse to Erase All Doubt that the Theft
of Property Covered by the Terms of a
Search Warrant, and Seized Pursuant to
that Warrant, Violates the Fourth
Amendment ................................................... 15
Conclusion ................................................................. 17

iv
TABLE OF AUTHORITIES
Cases
Agostini v. Felton, 521 U.S. 203 (1997) .................... 11
Allied-Signal, Inc. v. Dir., Div. of Taxation, 504
U.S. 768 (1992) ...................................................... 11
Fish v. Brown, 838 F.3d 1153 (11th Cir. 2016) ....... 14
Gonzales v. Duenas-Alvarez, 549 U.S. 183
(2007) ..................................................................... 16
Graham v. Connor, 490 U.S. 386 (1989) .................... 5
Hilton v. South Carolina Pub. Rys. Comm’n,
502 U.S. 197 (1991) ............................................... 11
Jessop v. City of Fresno, 918 F.3d 1031 (9th Cir.
2019) .................................................................. 4, 16
Jessop v. City of Fresno, 936 F.3d 937 (9th Cir.
2019) .............................................................. passim
Knick v. Twp. of Scott, 139 S. Ct. 2162 (2019) ......... 11
Malley v. Briggs, 475 U.S. 335 (1986) ........................ 4
Pearson v. Callahan, 555 U.S. 223 (2009) ....... passim
Saucier v. Katz, 533 U.S. 194 (2001) ................ passim
Tennessee v. Garner, 471 U.S. 1 (1985) .................... 16
Other Authorities
William Baude, Is Qualified Immunity
Unlawful?, 106 Cal. L. Rev. 45 (2018) .................... 4
Constitutional Provisions
U.S. Const. amend. IV ...................................... passim

In the Supreme Court of the United States
_____________
MICAH JESSOP & BRITTAN ASHJIAN, Petitioners,
v.
CITY OF FRESNO, DERIK KUMAGAI,
CURT CHASTAIN & TOMAS CANTU, Respondents.
_____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
_____________
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
_____________
INTEREST OF AMICUS CURIAE 1
The New Civil Liberties Alliance (NCLA) is a nonprofit, nonpartisan civil rights organization and public-interest law firm devoted to defending constitutional freedoms against systemic threats, including
attacks by state and federal administrative agencies,
on due process, jury rights, and freedom of speech.
NCLA also opposes judicial abdication of courts’ independent judgment through conventions of deference,
1

All parties were timely notified as to the filing of this brief.
The Respondents—despite having waived a response in this
matter—have not consented to NCLA’s proceeding as amicus
curiae. Thus, NCLA offers this brief pending the Court’s ruling on NCLA’s Motion for Leave to File. No counsel for a party
authored any part of this brief. No one other than the amicus
curiae, its members, or its counsel financed the preparation or
submission of this brief.

2
avoidance, and other impediments to the application
and development of constitutional law. We uphold
these constitutional rights on behalf of all Americans,
of all backgrounds and beliefs, and we do this through
original litigation, amicus curiae briefs, and other advocacy.
The “new civil liberties” of the organization’s name
include rights at least as old as the United States
Constitution itself, such as the right of the people to
be secure in their persons, houses, papers, and effects
against unreasonable searches and seizures. These
selfsame civil rights are also “new”—and in dire need
of renewed vindication—precisely because judicially
created immunities impermissibly shield the unconstitutional actions of state actors from § 1983 liability.
Whenever courts are unwilling to hold government
actors accountable for their constitutional transgressions against citizens, the vitality of every American’s
civil liberties diminishes.
NCLA is particularly disturbed that the Ninth Circuit Court of Appeals has willfully opted out of deciding a matter as simple—but gravely consequential—
as whether it is unconstitutional for a police officer to
use the cover of a search warrant to steal from a suspect. By choosing not to decide the issue, the panel
granted immunity not only to the Fresno police, but
to all police officers throughout the Ninth Circuit who
are accused of theft in the future, and who now may
continue to assert that a citizen’s constitutional protections from theft are not “clearly established.”
Thus, NCLA’s principal interest in this litigation is to
vindicate the § 1983 statutory scheme Congress enacted to ensure that states cannot deprive any person
of life, liberty, or property without due process of law.

3
SUMMARY OF THE ARGUMENT
The Court should issue a writ of certiorari in this
case to ensure justice for the Petitioners and the development of constitutional law. Alternatively, the Court
should summarily reverse the Ninth Circuit’s Jessop
decision and direct the court to apply the proper standard for consideration of qualified immunity defenses,
which includes deciding whether the Fresno police
violated the Petitioners’ Fourth Amendment rights.
The Ninth Circuit mishandled this case by holding
that it is not clearly established that the Petitioners
have a Fourth Amendment right to be free from theft
by police acting under the guise of a search warrant,
and by subsequently refusing to resolve whether the
theft of property seized pursuant to a warrant is an
unreasonable seizure under the Fourth Amendment.
In choosing not to decide whether police theft violates the Constitution, the Ninth Circuit transformed
qualified immunity into absolute impunity from constitutional liability. See Pet. for Writ of Cert. at 17
(Feb. 14, 2020). The Petitioners correctly assert that
the Fourth Amendment most certainly prohibits police officers from using a search warrant as an artifice
for personally enriching themselves through the theft
of a suspect’s property. See id. at 1-2. Moreover, if
the Ninth Circuit’s decision remains unchanged, police officers will be immune from constitutional liability for blatant thievery at least in the Ninth Circuit,
if not in other jurisdictions as well. This ruling is not
a faithful application of the Supreme Court’s modification of the qualified immunity deliberative process
set forth in Pearson v. Callahan, 555 U.S. 223 (2009).
Qualified immunity is a flawed, court-invented regime inconsistent in its current form with the letter

4
and spirit of § 1983. See generally William Baude, Is
Qualified Immunity Unlawful?, 106 Cal. L. Rev. 45, 48–
49 (2018). Even if a plaintiff proves that a state actor
violated his or her constitutional rights, the victim will
not recover damages if the state actor did not violate
“clearly established law.” See Pearson, 555 U.S. at 232.
This Court has justified such harsh results by explaining that qualified immunity is designed to “provide[] ample protection to all but the plainly incompetent or those who knowingly violate the law.” Malley
v. Briggs, 475 U.S. 335, 341 (1986). Moreover, in
those circumstances where constitutional law had not
been previously clearly established—at least until
Pearson—courts had subsequently clearly established
the law to at least prospectively prevent uncertainty
among state actors. See Pearson, 555 U.S. at 227.
In 2009, though, the Pearson Court weakened
§ 1983’s liberty-vindicating utility by permitting
courts to skip the first step in their qualified immunity analyses. See id. Pearson held that if it “will best
facilitate the fair and efficient disposition” of a case,
courts are not required to decide whether the plaintiff
has alleged a constitutional right in the first instance,
in rare circumstances. See id. at 242.
Even so, the Ninth Circuit has obliterated the Supreme Court’s Malley line in Jessop, by allowing police officers to assert qualified immunity even when
they knowingly violate the law by stealing someone’s
property. Compare Jessop v. City of Fresno, 936 F.3d
937, 943 (9th Cir. 2019) (subst. op. for Jessop v. City
of Fresno, 918 F.3d 1031 (9th Cir. 2019) with Malley,
475 U.S. at 341. Instead of constitutional protection
and vindication, the Respondents merely received the
Ninth Circuit’s sympathy. Jessop, 936 F.3d at 943.

5
This peculiar decision undermines—if it does not
completely destroy—the effectiveness of § 1983 in deterring deprivations of federal constitutional and statutory rights. Qualified immunity, after all, is meant to
protect frontline government employees who make
split-second decisions where it may not be clear in the
moment whether they are acting permissibly. Graham
v. Connor, 490 U.S. 386, 396-397 (1989) (explaining that
the reasonableness of police behavior must be determined in the context of the split-second judgments in
the situation). In Jessop, the police did not make a splitsecond decision. They acted deliberately, fully aware
of the difference between a lawful and unlawful seizure
and that they were committing theft. In fact, some of
the Respondents returned to the site of the “search” a
second time to steal more of the Petitioners’ property.
The Jessop decision is not only bad for the Petitioners.
Granting the police free rein to commit grand larceny
gives qualified immunity a bad name, as well.
The consequence of skipping the determination as
to whether a constitutional right exists creates a precedent paradox which stands the doctrine of stare decisis on its head by allowing a “not-clearly established” right to potentially remain that way, indefinitely. The court below failed to recognize that current qualified-immunity jurisprudence—including
Pearson—requires it to determine whether the plaintiffs had alleged a violation of their constitutional
rights prior to considering whether the right was
“clearly established.” Courts must not skip steps in
their qualified immunity analyses where a case would
not be best served by skipping or where constitutional
law may require elaboration. Such an outcome in this
case would shield police officers from being held accountable for stealing from suspects.

6
ARGUMENT
I.

THE NINTH CIRCUIT DID NOT PROPERLY APPLY
PEARSON

The Supreme Court’s Pearson decision did not alter qualified immunity’s two analytical steps. It
merely allowed trial judges to exercise a degree of discretion in rare circumstances not present in this case.
The Ninth Circuit’s misapplication of Pearson underscores the need to clarify or modify Pearson’s approach to qualified immunity.
A. Pearson Does Not Permit Step-Skipping
Where, as Here, Constitutional Rights Require
Elaboration
Contrary to the Ninth Circuit’s understanding of
the controlling precedent for analyzing qualified immunity, courts do not have carte blanche to ignore either step in their deliberation. In determining
whether a police officer or other state actor is entitled
to qualified immunity, courts consider (1) whether the
defendant violated the plaintiff’s constitutional right;
and (2) whether that constitutional right was clearly
established at the time of the officer’s misconduct. See
Pearson, 555 U.S. at 232 (citing Saucier v. Katz, 533
U.S. 194, 201 (2001)). In Saucier v. Katz, the Supreme
Court required judges first to consider a threshold
question when ruling on a qualified immunity defense: “do the facts alleged show the officer’s conduct
violated a constitutional right?” Saucier, 533 U.S. at
201 (modified in part by Pearson, 555 U.S. at 227). In
establishing the first step in the then-mandatory sequence of analysis, the Saucier Court indicated that
such determinations are “the process for the law’s
elaboration from case to case[.]” Id. The Court em-

7
phasized that its instruction to inferior courts “to concentrate at the outset on the definition of the constitutional right and to determine whether … a constitutional violation could be found is important.” Id. at
207.
Eight years later, the Supreme Court altered the
Saucier protocol. See Pearson, 555 U.S. at 234. The
Pearson Court examined “a considerable body of new
experience … regarding the consequences of requiring
adherence to this inflexible procedure.” Id. The Court
believed that the judiciary wasted resources in cases
where (1) it was unclear whether in fact a constitutional right existed in the first place, but (2) the alleged right was obviously not clearly established at
the time of the misconduct. See id. at 237. The Pearson Court was also concerned that parties should not
be forced “to endure additional burdens of suit—such
as the costs of litigating constitutional questions and
delays attributable to resolving them[.]” See id. (internal quotations and citations omitted).
In changing course regarding the Saucier protocol,
however, the Pearson Court did not overrule Saucier.
The Court could not have been more clear:
Our decision does not prevent the lower
courts from following the Saucier procedure; it simply recognizes that those
courts should have the discretion to decide
whether that procedure is worthwhile in
particular cases.
Id. at 242. Indeed, the Pearson Court endorsed Saucier’s analysis regarding the importance of determining whether the act complained of violated a constitutional right:

8
[T]he Saucier Court was certainly correct
in noting that the two-step procedure promotes the development of constitutional
precedent and is especially valuable with
respect to questions that do not frequently
arise in cases in which a qualified immunity defense is unavailable.
Id. at 236 (emphasis added).
Although holding that the two-step Saucier procedure is not always the best formula, the Court said
that the protocol is “often … advantageous[.]” Id. at
242. The Pearson Court stood by the principle that
the first step “is necessary to support the Constitution’s elaboration from case to case[.]” See id. at 232
(quoting Saucier, 533 U.S. at 201) (internal quotations omitted). It quoted Saucier favorably for articulating the concept that without the first step, “[t]he
law might be deprived of this explanation were a court
simply to skip ahead[.]” Ibid. Thus, while no longer
requiring a rigid sequential analysis in every qualified-immunity decision, the Pearson Court reaffirmed
that Saucier’s sequence “is often appropriate” and “often beneficial.” Id. at 236.
The Ninth Circuit should not have skipped the
first step in this case. The only context in which a
court could clearly establish whether stealing under
the guise of a search warrant is unconstitutional is in
§ 1983 litigation. Stolen evidence cannot be the subject of constitutional adjudication in any other setting. If “[t]he law might be deprived of [constitutional] explanation[,]” the Pearson Court said, a court
should engage in a first-step analysis to determine
whether a state actor violated a constitutional right
in the first place. See id. at 232. Since the Fourth

9
Amendment question presented here “do[es] not frequently arise in cases in which a qualified immunity
defense is unavailable[,]” the panel should have first
determined whether the plaintiff had suffered a constitutional injury. See id. The Supreme Court should
hear this matter to resolve the question whether police stealing property listed in a search warrant is a
clearly established violation of the Fourth Amendment.
B. Pearson Sanctions Step-Skipping Only in
Special Circumstances Not Present Here
As noted above, the Supreme Court has ruled
that “courts should have the discretion to decide
whether [the Saucier] procedure is worthwhile in particular cases.” Pearson, 555 U.S. at 242. The Pearson
Court indicated that this will depend on the facts of
each case, but step-skipping may be permissible
where a case will not make a meaningful contribution
to constitutional precedent, id. at 237; where it appears that the constitutional question will soon be answered by a higher court, id. at 237-38; where constitutional rights depend on a federal court’s “uncertain
assumptions” about state law, id. at 238; or where “a
kaleidoscope of facts” at the pleadings stage has not
been fully developed, id. at 238-39. These exceptions
to the Saucier protocol are not at all applicable to the
qualified-immunity question presented here.
The Ninth Circuit, however, claimed that stepskipping was
especially appropriate where ‘a court will
rather quickly and easily decide that there
was no violation of clearly established
law.’ [Pearson, 555 U.S.] at 239. This is
one of those cases.

10
Jessop, 936 F.3d at 940. But “quickly and easily” is
not the standard for determining whether step-skipping may be used to decide qualified immunity. Moreover, a conclusory statement such as this, without any
analysis, does not sufficiently establish that this is
“one of those cases.”
The lower court should not have asked whether it
could decide the case more “quickly and easily” by applying one step instead of two. Proper application of
Pearson required the panel to ask what analytical
framework “will best facilitate [its] fair and efficient
disposition[,]” given the unique facts and circumstances surrounding the alleged constitutional violation giving rise to the § 1983 action. See Pearson, 555
U.S. at 242, 236. The Ninth Circuit should have either
scrutinized step one—whether the police violated a
constitutional right—or else explained why engaging
in a step-one analysis would not have advanced Saucier’s goal of developing important constitutional precedent. See id. at 242. As the court did not undertake
either of these lines of inquiry, the Supreme Court
should hear this matter to conclusively establish the
proper protocol for analyzing qualified immunity.
II.

WHERE A CONSTITUTIONAL RIGHT IS NOT
CLEARLY ESTABLISHED, COURTS SHOULD DECIDE
WHETHER THE RIGHT EXISTS FOR FUTURE
APPLICATION

The Court should revisit Pearson and clarify or
modify it to require federal courts either to decide
whether a plaintiff has alleged a deprivation of his or
her civil rights regardless of whether the deprivation
was “clearly established,” or to identify one of the stipulated Pearson exceptions to deciding whether a deprivation has occurred.

11
A. Failing to Decide Whether a Constitutional
Right Is Clearly Established Creates a
Troubling “Anti-Precedent”
The Jessop decision shows that once a constitutional right is deemed not clearly established, it may
become a constitutional right not clearly established
indefinitely, standing the doctrine of stare decisis on
its head. That is, instead of a thing once decided remaining decided, here a right whose existence is left
undecided is likely to remain not decided for a very
long time (and, therefore, not to exist for § 1983 purposes).
The doctrine of stare decisis “is of fundamental importance to the rule of law.” Hilton v. South Carolina
Pub. Rys. Comm’n, 502 U.S. 197, 202 (1991). Respect
for precedent is fundamental because it “promotes
stability, predictability, and respect for judicial authority.” Allied-Signal, Inc. v. Dir., Div. of Taxation,
504 U.S. 768, 783 (1992) (internal quotations and citations omitted).
The Jessop decision, however, does just the opposite. The Ninth Circuit affirmed Jessop’s holding that
the police enjoyed the benefits of qualified immunity
on the basis of a negative—because, according to the
Court, it is not “clearly established” that the Petitioners have a “right to be free from the theft of property
seized pursuant to a warrant[.]” See Jessop, 936 F.3d
at 943. In other words, the court did not settle “an
applicable rule of law.” See Knick v. Twp. of Scott, 139
S. Ct. 2162, 2177 (2019) (citing Agostini v. Felton, 521
U.S. 203, 235 (1997)). Thus, the scope and nature of
the Fourth Amendment remains an unanswered
question, at least in the Ninth Circuit and in circuits
persuaded by the Ninth Circuit’s logic.

12
The ruling below is particularly troubling because
theft is a malum in se offense. That is, the police
knew that theft was wrong without any court having
to tell them so. There is no fine line at issue here.
Indeed, the Ninth Circuit was clear “that theft is morally wrong.” Jessop, 936 F.3d at 941. Qualified immunity may have a place in protecting state actors
when their conduct is borderline and in service of public benefit. Here, in contrast, the officers’ conduct was
not borderline and was done solely for personal enrichment.
Leaving the constitutional question explicitly unanswered means the next time a police officer steals
from a suspect while executing a search warrant, he
or she will be able to cite Jessop to show that there is
no clearly established precedent regarding whether
his or her theft violated a constitutional right. In
other words, by immediately jumping to a decision
that the constitutional violation was not clearly established, while simultaneously refusing to establish
whether a constitutional right existed at all, the panel
created a precedent paradox—an “anti-precedent,” if
you will—that could hamstring the courts from ever
answering the constitutional question in the future.
B. This Anti-Precedent Could Prevent a
Future Court from Deciding Whether the
Constitutional Right Is Clearly Established
Since qualified immunity is immunity from suit, a
district court will not try a case where the defendant’s
immunity from suit is clear. So, while the anti-precedent lacks decisional authority under stare decisis, it
nevertheless exerts the preclusive power of a thing decided, under these factual circumstances.

13
There is now a precedent in the Ninth Circuit stating that police officer theft in the course of executing
search warrants is not a clearly established constitutional violation. There are at least four negative consequences that logically flow from this fact:
x

x

x

x

First, the precedent creates an incentive for a
dishonest police officer to commit theft, knowing that qualified immunity will obtain unless
and until a future case clearly establishes that
theft in the execution of a search warrant violates the Constitution. Even if a subsequent
court declares such theft to be a violation of the
suspect’s Constitutional rights, the new decision will not be applied retroactively.
Second, there is little incentive for a would-be
plaintiff to bring a § 1983 lawsuit, because a
well-counseled plaintiff will know that such a
lawsuit will be futile, as it will run up against
the defendant’s qualified immunity. As a result, few future cases (if any) will be brought to
expound on the constitutionality of search warrant thefts.
Third, for the next similar case that comes
along, the district court will know that the defendant enjoys qualified immunity and will
therefore be less likely to bother developing the
facts of the case to distinguish it from Jessop.
Finally, and following this thread to its logical
conclusion, when the next case gets to the
Ninth Circuit, and even if the court does not
want to step-skip, and even if it faithfully follows Pearson, such case will have insufficient
factual development in the record from the district court to enable the appellate court to
clearly establish at that time that police theft

14
in the course of executing a search warrant violates the Constitution.
Thus, the anti-precedent transforms careful consideration of whether a state actor may be entitled to qualified immunity into a rubber stamp of absolute impunity—for the foreseeable future, if not in perpetuity.
For instance, take the constitutional right that
was not “clearly established” in Pearson itself, “consent-once-removed.” Pearson, 555 U.S. at 244-45.
More than a decade after the Pearson Court’s decision, the doctrine appears still not to be clearly established, at least in certain circuits. Indeed, the Eleventh Circuit has commented that it has not
addressed the ‘consent-once-removed’ doctrine after the Supreme Court’s 2009 decision in Pearson. Therefore, the doctrine is
no more settled today than it was in 2009.
Thus, if the Deputies were entitled to rely
upon the doctrine in Pearson, they also
were entitled to rely upon it here.
Fish v. Brown, 838 F.3d 1153, 1165 (11th Cir. 2016)
(emphasis added). Whether the issue is consent-onceremoved in the Eleventh Circuit or police theft in the
Ninth, the void of clearly established constitutional
rights ironically ensures that these rights, if they exist, will linger in an eternal purgatory of being not
clearly established and hence not enforceable.
To resolve this paradox, the Supreme Court should
clarify or modify Pearson and require courts to consider both steps in their qualified immunity analyses.
Where a court permissibly determines that it “will
best facilitate the fair and efficient disposition” of a

15
case by initially considering whether the alleged constitutional violation is “clearly established,” the court
should still be required to determine whether in fact
the constitutional right claimed by the plaintiff exists,
for its prospective application. Exceptions to this rule
should be limited to the rare cases expressly exempted by the Pearson Court: (1) cases that will not
make a meaningful contribution to constitutional
precedent; (2) cases in which the constitutional question will soon be answered by a higher court; (3) cases
in which constitutional rights depend on a federal
court’s “uncertain assumptions” about state law; or
(4) cases lacking full factual development at the
pleadings stage. Pearson, 555 U.S. at 237-39.
III. THE SUPREME COURT SHOULD SUMMARILY
REVERSE TO ERASE ALL DOUBT THAT THE THEFT
OF PROPERTY COVERED BY THE TERMS OF A SEARCH
WARRANT, AND SEIZED PURSUANT TO THAT
WARRANT, VIOLATES THE FOURTH AMENDMENT
The Respondents have always known that the police may not use a search warrant as an artifice for
personally enriching themselves through the theft of
a suspect’s property.2 The police are trained to acquire search warrants, to execute searches, and to
document seizure of evidence. They are also trained
to identify and stop theft. It is preposterous to suggest that it is not clear to the Fresno police that theft
of a suspect’s property—and theft of evidence of a suspected crime—is, ipso facto, an unreasonable seizure.
It is worth noting that the police officers’ theft of Jessop’s rare
coin collection did not occur when the police executed the search
warrant. Pet. for Writ of Cert. at 6. The police did not seize the
rare coin collection until later that day during a second visit,
without applying for a new search warrant. Ibid.

2

16
The Fourth Amendment prohibits “unreasonable
searches and seizures[.]” U.S. Const. amend. IV. The
threshold question as to whether a seizure is reasonable is whether the seizure advances a governmental
interest. Tennessee v. Garner, 471 U.S. 1, 8 (1985).
Theft is the “taking of property or an exercise of control over property … with the criminal intent to deprive the owner of rights[.]” Gonzales v. Duenas-Alvarez, 549 U.S. 183, 189 (2007) (providing the “generic
definition of theft” as adopted by the Ninth Circuit)
(emphasis added). Since a theft—by definition—can
never advance a governmental interest, a state actor’s
seizure of property with the criminal intent to deprive
the rightful owner of his or her possessory rights is
always unreasonable under the Fourth Amendment.
In the now-vacated Ninth Circuit Jessop opinion,
the court incorrectly stated that there was a circuit
“split in authority” regarding whether it is obvious
that the police violated the Petitioners’ constitutional
rights. See Jessop, 918 F.3d at 1036. In the superseding Ninth Circuit Jessop opinion, the court stated
that the Ninth Circuit has “never addressed whether
the theft of property covered by the terms of a search
warrant, and seized pursuant to that warrant, violates the Fourth Amendment.” Jessop, 936 F.3d
at 941. Regardless of whether there is a circuit split
or whether the Ninth Circuit never before contemplated the issue, this Court should summarily reverse
because police-theft is, by definition, an unreasonable
seizure.

17
CONCLUSION
The Supreme Court should either issue a writ of
certiorari or else summarily reverse to remove all
doubt and misunderstanding that the actions of the
Respondents violated the Petitioners’ Fourth Amendment right to be free from unreasonable seizures.
Respectfully submitted,
Mark Chenoweth
Michael P. DeGrandis
Harriet M. Hageman
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th Street NW
Suite 450
Washington, DC 20036
(202) 869-5210
Dated: March 11, 2020 harriet.hageman@ncla.legal
Counsel for Amicus Curiae

